            EVALUATION REPORT
   Independent Evaluation of NRC’s Implementation of the Federal
      Information Security Management Act for Fiscal Year 2013

                    OIG-14-A-03        November 22, 2013




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                               WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                        November 22, 2013


MEMORANDUM TO:            Mark A. Satorius
                          Executive Director for Operations



FROM:                     Stephen D. Dingbaum /RA/
                          Assistant Inspector General for Audits


SUBJECT:                  INDEPENDENT EVALUATION OF NRC'S
                          IMPLEMENTATION OF THE FEDERAL INFORMATION
                          SECURITY MANAGEMENT ACT FOR FISCAL YEAR 2013
                          (OIG-14-A-03)


Attached is the Office of the Inspector General’s (OIG) report titled Independent
Evaluation of NRC’s Implementation of the Federal Information Security Management
Act [FISMA] for Fiscal Year 2013. The objective was to perform an independent
evaluation of the Nuclear Regulatory Commission’s implementation of FISMA for FY
2013.

The report presents the results of the subject evaluation. The agency had no comments
at the exit conference on November 19, 2013.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
evaluation. If you have any questions or comments about our report, please contact me
at 415-5915 or Beth Serepca, Team Leader, at 415-5911.

Attachment: As stated
                           Independent Evaluation of
                          NRC’s Implementation of the
                 Federal Information Security Management Act
                              for Fiscal Year 2013




                      Contract Number: GS-00F-0001N
                Delivery Order Number: HHSP233201300215G

                                                 November 20, 2013




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
[Page intentionally left blank]
                                                                           Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2013


EXECUTIVE SUMMARY


BACKGROUND

      The U.S. Nuclear Regulatory Commission (NRC) Office of the Inspector General (OIG)
      retained Richard S. Carson & Associates, Inc. (Carson Associates), to perform an
      independent evaluation of NRC’s implementation of the Federal Information Security
      Management Act (FISMA) for fiscal year (FY) 2013. This report presents the results of
      that independent evaluation. Carson Associates will also submit responses to the Office
      of Management and Budget’s (OMB) annual FISMA reporting questions for OIGs via
      OMB’s automated collection tool in accordance with OMB guidance.

OBJECTIVE

      The objective was to perform an independent evaluation of NRC’s implementation of
      FISMA for FY 2013.

RESULTS IN BRIEF

      Program Enhancements and Improvements

      NRC has continued to make improvements to its information technology (IT) security
      program and progress in implementing the recommendations resulting from previous
      FISMA evaluations. The agency has accomplished the following since the FY 2012
      FISMA independent evaluation:

         •   The agency continued to maintain current authorizations to operate for all agency
             and contractor systems. In FY 2013, the agency completed security assessments
             and authorizations of seven systems. As of the completion of fieldwork for FY
             2013, all operational NRC information systems and both systems used or operated
             by a contractor or other organization on behalf of the agency had a current
             authorization to operate.
         •   The agency completed or updated security plans for 18 of the 21 agency systems
             and for both contractor systems.
         •   The agency completed annual security control testing for 15 agency systems and
             both contractor systems, and security test and evaluation in support of system
             authorization for 5 agency systems. The one system for which annual security
             control testing was not completed is scheduled to be decommissioned at the end
             of the calendar year, so no testing was required.
         •   The agency completed annual contingency plan testing for all agency and
             contractor systems, and updated the contingency plans for 17 agency systems and
             both contractor systems.
         •   The agency issued several updated documents, processes, and standards related to
             IT security including Management Directive and Handbook 12.5, NRC Cyber



                                              i
                                                                         Independent Evaluation of
                                                          NRC’s Implementation of FISMA for FY 2013


            Security Program; Agency-wide Rules of Behavior for Authorized Computer
            Use; Malicious Code Protection Guidance; Strong Password Standard; the NRC
            Information Security Program Plan; and several incident response documents.

     Program Weaknesses

     While the agency has continued to make improvements in its IT security program and has
     made progress in implementing the recommendations resulting from previous FISMA
     evaluations, the independent evaluation identified the following information system
     security program weaknesses.

        •   The agency’s contractor system oversight program is not consistently
            implemented.
        •   There is a repeat finding from a previous FISMA evaluation: configuration
            management procedures are still not consistently implemented.
        •   There is a repeat finding from several previous FISMA evaluations: the NRC plan
            of action and milestone (POA&M) program still needs improvement.

RECOMMENDATIONS

     This report makes recommendations to the Executive Director for Operations to improve
     NRC’s information system security program and implementation of FISMA.
     Recommendations are made in this report for the new finding only. Recommendations
     for the repeat findings were made in prior reports, and completion of those findings is
     being tracked through the OIG followup process. A consolidated list of
     recommendations appears on page 15 of this report.

AGENCY COMMENTS

     An exit conference was held with the agency on November 19, 2013. At this meeting,
     agency management stated their agreement with the findings and recommendations in
     this report and opted not to provide formal comments for inclusion in this report.




                                            ii
                                                                         Independent Evaluation of
                                                          NRC’s Implementation of FISMA for FY 2013


ABBREVIATIONS AND ACRONYMS


ATO                 Authorization to Operate
ATU                 Authorization to Utilize
Carson Associates   Richard S. Carson and Associates, Inc.
CSO                 Computer Security Office
FISMA               Federal Information Security Management Act
FY                  Fiscal Year
IT                  Information Technology
NIST                National Institute of Standards and Technology
NRC                 Nuclear Regulatory Commission
OIG                 Office of the Inspector General
OMB                 Office of Management and Budget
POA&M               Plan of Action and Milestones
RMF                 Risk Management Framework
SP                  Special Publication




                                            iii
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2013




[Page intentionally left blank]




              iv
                                                                                                              Independent Evaluation of
                                                                                               NRC’s Implementation of FISMA for FY 2013


TABLE OF CONTENTS


Executive Summary ....................................................................................................... i
Abbreviations and Acronyms ..................................................................................... iii

1 Background .............................................................................................................. 1
2 Objective ................................................................................................................... 1
3 Findings .................................................................................................................... 1
  3.1 Contractor Systems Oversight....................................................................... 2
            Finding #1: NRC’s Inventory of Contractor Systems Is Incomplete ........................................... 3
            3.1.1 NRC Inventory Requirements ........................................................................3
            3.1.2 Inventory Information for NRC Contractor Systems Is Inconsistent .......... 4
            Finding #2: NRC’s RMF Is Not Consistently Followed for Contractor Systems ........................ 4
            3.1.3 NRC RMF Requirements for Contractor Systems ........................................5
            3.1.4 Agency Has Not Fully Met Requirements .....................................................5
    3.2     Configuration Management ............................................................................ 6
            Finding #3: NRC Configuration Management Procedures Are Not Consistently
                 Implemented......................................................................................................................... 7
            3.2.1 Configuration Management Requirements ...................................................7
            3.2.2 Agency Has Not Fully Met Requirements .....................................................9
    3.3     Plan of Action and Milestones (POA&M) ..................................................... 10
            Finding #4: NRC POA&M Program Still Needs Improvement ................................................ 11
            3.3.1 POA&M Process Requirements...................................................................11
            3.3.2 Agency Has Not Fully Met Requirements ................................................... 12
            3.3.3 NRC’s POA&M Tool Still Does Not Implement Key OMB and NRC
                    POA&M Requirements .................................................................................13
            3.3.4 Initial Target Remediation Dates Are Frequently Missed .......................... 14
4 Consolidated List of Recommendations ............................................................. 15
5 Agency Comments ................................................................................................ 17


Appendix.                 OBJECTIVE, SCOPE, AND METHODOLOGY ............................................ 19




                                                                         v
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2013




[Page intentionally left blank]




              vi
                                                                                         Independent Evaluation of
                                                                          NRC’s Implementation of FISMA for FY 2013


1       Background

On December 17, 2002, the President signed the E-Government Act of 2002, which included the
Federal Information Security Management Act (FISMA) of 2002. 1 FISMA outlines the
information security management requirements for agencies, which include an annual
independent evaluation of an agency’s information security program 2 and practices to determine
their effectiveness. This evaluation must include testing the effectiveness of information security
policies, procedures, and practices for a representative subset of the agency’s information
systems. The evaluation also must include an assessment of compliance with FISMA
requirements and related information security policies, procedures, standards, and guidelines.
FISMA requires the annual evaluation to be performed by the agency’s Office of the Inspector
General (OIG) or by an independent external auditor. 3 Office of Management and Budget
(OMB) memorandum M-14-04, Fiscal Year 2013 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management, dated November 18,
2013, requires OIG to report their responses to OMB’s annual FISMA reporting questions for
OIGs via an automated collection tool.

The U.S. Nuclear Regulatory Commission (NRC) OIG retained Richard S. Carson & Associates,
Inc. (Carson Associates), to perform an independent evaluation of NRC’s implementation of
FISMA for fiscal year (FY) 2013. This report presents the results of that independent evaluation.
Carson Associates will also submit responses to OMB’s annual FISMA reporting questions for
OIGs via OMB’s automated collection tool in accordance with OMB guidance. A consolidated
list of recommendations appears on page 15.

2       Objective

The objective was to perform an independent evaluation of NRC’s implementation of FISMA for
FY 2013. The report appendix contains a description of the evaluation objective, scope, and
methodology.

3       Findings

NRC has continued to make improvements to its information technology (IT) security program
and progress in implementing the recommendations resulting from previous FISMA evaluations.
The agency has accomplished the following since the FY 2012 FISMA independent evaluation:

1
  The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the
  E-Government Act of 2002 (Public Law 107-347) and replaces the Government Information Security Reform Act,
  which expired in November 2002.
2
  NRC uses the term “information security program” to describe its program for ensuring that various types of
  sensitive information are handled appropriately and are protected from unauthorized disclosure in accordance with
  pertinent laws, Executive orders, management directives, and applicable directives of other Federal agencies and
  organizations. For the purposes of FISMA, the agency uses the term information technology (IT) security
  program.
3
  While FISMA uses the language “independent external auditor,” OMB Memorandum M-04-25, FY 2004
  Reporting Instructions for the Federal Information Security Management Act, clarified this requirement by stating,
  “Within the context of FISMA, an audit is not contemplated. By requiring an evaluation but not an audit, FISMA
  intended to provide Inspectors General some flexibility.…”


                                                         1
                                                                                        Independent Evaluation of
                                                                         NRC’s Implementation of FISMA for FY 2013




      •    The agency continued to maintain current authorizations to operate for all agency and
           contractor systems. In FY 2013, the agency completed security assessments and
           authorizations of seven systems. As of the completion of fieldwork for FY 2013, all
           operational NRC information systems and both systems used or operated by a contractor
           or other organization on behalf of the agency had a current authorization to operate. 4
      •    The agency completed or updated security plans for 18 of the 21 agency systems and for
           both contractor systems.
      •    The agency completed annual security control testing for 15 agency systems and both
           contractor systems, and security test and evaluation in support of system authorization for
           5 agency systems. The one system for which annual security control testing was not
           completed is scheduled to be decommissioned at the end of the calendar year, so no
           testing was required.
      •    The agency completed annual contingency plan testing for all agency and contractor
           systems, and updated the contingency plans for 17 agency systems and both contractor
           systems.
      •    The agency issued several updated documents, processes, and standards related to IT
           security including Management Directive and Handbook 12.5, NRC Cyber Security
           Program; Agency-wide Rules of Behavior for Authorized Computer Use; Malicious
           Code Protection Guidance; Strong Password Standard; the NRC Information Security
           Program Plan; and several incident response documents.

While the agency has continued to make improvements in its IT security program and has made
progress in implementing the recommendations resulting from previous FISMA evaluations, the
independent evaluation identified the following information system security program
weaknesses.

      •    The agency’s contractor system oversight program is not consistently implemented.
      •    There is a repeat finding from a previous FISMA evaluation: configuration management
           procedures are still not consistently implemented.
      •    There is a repeat finding from several previous FISMA evaluations: the NRC plan of
           action and milestone (POA&M) program still needs improvement.

Recommendations are made in this report for the new finding only. Recommendations for the
repeat findings were made in prior reports, and completion of those findings is being tracked
through the OIG followup process.

3.1        Contractor Systems Oversight

FISMA requires agencies to provide information security protections commensurate with the risk
and magnitude of harm resulting from unauthorized access, use, disclosure, disruption,
modification, or destruction of (1) information collected or maintained by or on behalf of the
agency or (2) information systems used or operated by an agency or by a contractor of an agency

4
    Four operational NRC information systems are operating under an ATO extension.


                                                         2
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2013


or other organization on behalf of an agency. Management Directive and Handbook 12.5
requires Federal agencies or third-party service providers hosting NRC capabilities to meet NRC
cyber security requirements. Computer Security Office (CSO) process CSO-PROS-2030, NRC
Risk Management Framework (RMF) and Authorization Process, provides the process for
applying the RMF described in National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-37, Guide for Applying the Risk Management Framework to Federal
Information Systems, to secure NRC systems, including contractor systems, and includes the
steps required to obtain IT system authorization and authorization requirements for IT systems,
applications, laptops, services, and facilities.

However, the FISMA evaluation team found that agency’s contractor system oversight program
is not consistently implemented. Specifically, NRC’s inventory of contractor systems is
incomplete and the NRC’s RMF is not consistently followed for contractor systems. As a result,
the agency cannot determine whether systems that are owned or operated by contractors or other
entities are compliant with FISMA requirements, OMB policy, and applicable NIST guidelines.

Finding #1: NRC’s Inventory of Contractor Systems Is Incomplete

CSO-PROS-2030 provides the process for applying the NIST RMF secure NRC systems and
defines the six types of systems and services to which the RMF applies. However, the FISMA
evaluation team found that NRC’s inventory of contractor systems is incomplete. As a result,
NRC is not able to obtain assurance that security controls of such systems and services are
effectively implemented and comply with Federal and agency guidelines.

3.1.1 NRC Inventory Requirements

CSO-PROS-2030 defines the following categories of systems. Each system in the NRC
inventory should be classified as one of these systems.

   •   IT System – a compilation of hardware and software that operates within its own
       authorization boundary to electronically perform a specific task or set of tasks. IT
       Systems are NRC-owned, NRC contractor systems, or customized implementations of
       systems for NRC, and they exist in their own authorization boundary (i.e., not part of
       another system’s authorization boundary).
   •   Application – computer software designed to perform singular or multiple related
       specific tasks. Applications are NRC commercial off-the-shelf, Government off-the-
       shelf, or custom software; do not have the security infrastructure or foundation to exist in
       their own authorization boundary; and are part of an IT System’s authorization boundary.
   •   Laptops and Stand-Alone Personal Computers – non-centrally managed laptops and
       stand-alone personal computers, including those processing sensitive unclassified non-
       safeguards information, safeguards information, and classified information (does not
       include laptops and desktops that are part of the NRC infrastructure system’s boundary).
   •   Service – external services that support NRC’s operational mission. Examples include
       public Web site hosting and external Government or private contractor
       applications/services (non-NRC).



                                                3
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2013


   •   Facility – physical building leased or owned by a contractor or other Government agency
       to host NRC systems. IT components hosted in the facility must have an IT System
       Authorization to Operate (ATO).
   •   Social Media – public Web 2.0 Web sites owned and operated by an external third-party
       (e.g., Facebook, Flickr, Twitter, and YouTube).

The NRC inventory also identifies the owner of the system (e.g., NRC or Contractor), the
security type of the system (e.g., Major Application, General Support System, Listed System,
Other System), and whether or not the system is an e-Government system (i.e., operated by
another Federal agency).

3.1.2 Inventory Information for NRC Contractor Systems Is Inconsistent

The FISMA evaluation team reviewed the NRC inventory as of September 30, 2013, and found
several examples of incorrect or missing information for NRC contractor systems. The
following are some examples:

   •   Seven systems are missing an owner (i.e., NRC or Contractor). Based on other
       information in the inventory, these are likely Contractor systems.
   •   Four systems are missing a security type (i.e., Major Application, General Support
       System, Listed System, Other System).
   •   Eight systems are missing the flag denoting whether the system is an e-Government
       system.
   •   Two systems are incorrectly classified as IT Systems when they should be Services.
   •   Three systems are incorrectly classified as Applications when they should be either IT
       Systems or Services.
   •   One system is incorrectly classified as a Service when it should be classified as Social
       Media.
   •   The inventory is missing a Federal data center that hosts an IT System.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   1. Update the information in the NRC inventory for contractor systems to include missing
      information and to correctly classify contractor systems in accordance with CSO-PROS-
      2030, NRC Risk Management Framework.

Finding #2: NRC’s RMF Is Not Consistently Followed for Contractor Systems

CSO-PROS-2030 describes the process for applying the NIST RMF to secure NRC systems,
including the steps required to obtain IT system authorization and authorization requirements for
IT systems, applications, laptops, services, and facilities. However, the FISMA evaluation team
found that NRC’s RMF is not consistently followed for contractor systems. This is likely due in



                                                4
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2013


part to the fact that the inventory of contractor systems is incomplete. As a result, NRC is not
able to obtain assurance that security controls of such systems and services are effectively
implemented and comply with Federal and agency guidelines.

3.1.3 NRC RMF Requirements for Contractor Systems

CSO-PROS-2030 defines the following categories of systems and their authorization
requirements. These requirements apply to NRC systems and to systems operated on the
agency’s behalf by contractors or other entities.

   •   IT System – requires an ATO.
   •   Application – inherits the ATO from its host IT System.
   •   Laptops and Stand-Alone Personal Computers – requires laptop certification.
   •   Service – requires an Authorization to Utilize (ATU). If the Service is not authorized to
       operate by another Federal agency, then it must be authorized to operate by the NRC as
       an IT System.
   •   Facility – requires a Facility ATO. If the Facility ATO is not issued by another Federal
       agency, then additional authorization requirements apply.
   •   Social Media – requires a Web 2.0 Implementation ATO.

Once a Service is issued an ATU, it also requires confirmation of annual system security plan
updates, annual contingency plan testing, and annual security control testing. Instructions
included with the IT security risk management activities memorandum for FY 2013, issued
November 28, 2012, included a requirement to ensure systems owned and/or operated by other
agencies or contractors also satisfy annual contingency plan testing and control testing
requirements and have a valid ATO. For such systems, the NRC organization must obtain a
memorandum from the agency that owns or operates the system confirming the following:

   •   Completion of annual contingency plan testing, including date test was completed.
   •   Completion of annual control testing, including date test was completed.
   •   Status of ATO, including the date of the current ATO. For new or revised ATO dates,
       also provide the agency’s certification/security control assessment and ATO memos.

This memorandum was required to be entered in the agency’s official document repository and
submitted to the CSO by emailing the document’s repository tracking number by September 15,
2013.

3.1.4 Agency Has Not Fully Met Requirements

The FISMA evaluation team reviewed the authorization documentation for contractor systems
and found that the agency has not fully met NRC RMF requirements for contractor systems. The
following are some examples:




                                                 5
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2013


      •   The evaluation team identified one system on the inventory classified as an IT System
          that does not have an ATO, as well as one system that may be incorrectly classified as an
          Application.
      •   The IT security risk management activities memorandum and instructions for FY 2013
          listed nine systems to which annual requirements for systems owned and/or operated by
          other agencies or contractors apply, one of which was retired after the memorandum was
          issued. However, the evaluation team found that the list of contractor systems in the
          November 2012 memorandum was incomplete. The list should have included three
          additional systems, one of which has had an ATU since 2011, as well as one additional
          system that may be incorrectly classified as an Application. In addition, the evaluation
          team found that for the systems on the list, the agency did not obtain the required
          documentation from the hosting organization(s) as required. Required documentation
          was submitted only for one system.
      •   For Services not authorized by another Federal agency, they must be authorized to
          operate by the agency as an IT System. The evaluation team identified four systems on
          the inventory classified as a Service that are not authorized by another Federal agency
          and do not have an ATO issued by NRC.

RECOMMENDATIONS

      The Office of the Inspector General recommends that the Executive Director for Operations:

      2. Based on the updated inventory of contractor systems, identify those that are not
         compliant with CSO-PROS-2030, NRC Risk Management Framework, and complete
         appropriate authorization activities for those systems.
      3. Develop procedures for ensuring the annual IT security risk management activities for
         systems owned and/or operated by other agencies or contractors are completed in
         accordance with NRC requirements.

3.2       Configuration Management

FISMA requires agencies to develop policies and procedures that ensure compliance with
minimally acceptable system configuration requirements as determined by the agency. NIST SP
800-53, Recommended Security Controls for Federal Information Systems and Organizations,
requires organizations to (1) develop, document, and maintain under configuration control, a
current baseline configuration for information systems; (2) establish and document mandatory
configuration settings for IT products employed within information systems; (3) monitor and
control changes to the configuration settings; (4) scan for vulnerabilities in information systems;
(5) remediate legitimate vulnerabilities within organization-defined response times; and (6)
incorporate flaw remediation into the configuration management process.

The agency has established and is maintaining a configuration management program that is
consistent with FISMA requirements and applicable NIST guidelines. The FY 2011 FISMA
evaluation found that configuration management procedures are not consistently implemented.
Specifically, (i) standard baseline configurations are not implemented on some NRC systems; (ii)
software compliance assessment procedures are not consistently implemented; and (iii)


                                                  6
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2013


vulnerability remediation and patch management procedures are not consistently implemented.
The agency has yet to implement the five recommendations from the FY 2011 FISMA
evaluation related to configuration management and many of the same issues were found again
in the FY 2013 evaluation. As a result, information security protections may not be
commensurate with the risk and magnitude of the harm resulting from unauthorized access, use,
disclosure, disruption, modification, or destruction of NRC information and information systems.

Finding #3: NRC Configuration Management Procedures Are Not Consistently
Implemented

The NRC configuration program includes CSO issued processes, procedures, standards,
guidelines, checklists, and templates. These include standard baseline configurations for
software, hardware, and other technologies in use at the agency; procedures for assessing
software for compliance with baseline configurations; and processes for timely remediation of
vulnerabilities, including configuration-related vulnerabilities and scan findings, and for the
timely and secure installation of software patches. However, the FISMA evaluation team found
that NRC configuration management procedures are not consistently implemented. Specifically,
(i) standard baseline configurations are not implemented on some NRC systems; (ii) software
compliance assessment procedures are not consistently implemented; and (iii) vulnerability
remediation and patch management procedures are not consistently implemented. As a result,
information security protections may not be commensurate with the risk and magnitude of the
harm resulting from unauthorized access, use, disclosure, disruption, modification, or destruction
of NRC information and information systems.

3.2.1 Configuration Management Requirements

Standard Baseline Configurations

CSO is responsible for identifying system configuration standards to be used in the protection of
any information system that stores, transmits/receives, or processes NRC information. CSO
publishes and maintains NRC-specific configuration standards, but also relies on those published
by other authoritative sources. The precedence for the applicability of configuration baselines is
CSO Standards; Defense Information Systems Agency finalized standards, checklists, and
guidance; and Center for Internet Security finalized benchmarks.

The CSO has developed five broad categories of standards:

   •   General Cyber Security Standards – technology/implementation independent
       requirements that apply across the NRC and to all information systems that store,
       transmit/receive, or process NRC information. These standards include CSO-STD-0001,
       NRC Strong Password Standard, and CSO-STD-0020, Organization Defined Values for
       System Security Controls.
   •   Network Standards –apply to the network infrastructure overall, as well as minimum
       baseline cyber security requirements for network devices, such as network routers,
       switches, firewalls, and wireless network components that transmit/receive NRC
       information.


                                                7
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2013


   •   Operating System Standards –apply to operating systems for all types of computers
       except firmware and operating systems for network devices (e.g., routers, firewalls,
       switches, sensors, and load balancers). Standards for network device operating systems
       are included within the Network Standards category.
   •   Application Standards –apply to application software used to perform a specific task,
       such as word processing, Web browsing, financial management, and software used to
       manage or provide services to the infrastructure (e.g., database, e-mail, file, and Web
       server). Internet applications (e.g., Twitter, Facebook, Flickr, WordPress, and YouTube)
       are covered under the CSO-STD-1314, NRC Web 2.0 Implementation Standard.
   •   Device Standards –apply to IT resources that store, process, and print NRC information.

Software Compliance Assessment

CSO-PROS-2030 requires vulnerability assessments as part of Step 4 of the RMF. CSO-PROS-
1323, U.S. NRC Agency-wide Continuous Monitoring Program, requires networked-based scans,
hardening checks, Web application security assessments for Web-based systems, and wireless
scans, on an at least annual basis, if not more frequently depending on the system sensitivity
level. System owners must provide evidence of periodic scanning to the CSO. CSO-STD-0020
requires system owners to scan for vulnerabilities at least quarterly. CSO-PROS-1401, Periodic
System Scanning Process, describes the process to be used to effectively perform periodic scans
on NRC systems.

The IT security risk management activities memorandum and instructions for FY 2013 define the
frequency for performing patch vulnerability management activities. System Owners must
complete the following to continuously detect and resolve vulnerabilities in their systems:

   •   Track patch and vulnerability management through a formal change control process.
   •   Establish a schedule for patching and system vulnerability scanning that is aligned to
       resolve vulnerabilities and verify fixes.
   •   Ensure routine scans and security checks are conducted in a timely fashion.
   •   Ensure findings identified in the scans and security checks are added and tracked in the
       POA&M in accordance with CSO-PROS-2016, U.S. NRC POA&M Process.
   •   Upload a Periodic Scan Report as an artifact in the agency information assurance tool to
       serve as evidence of scanning and patching/lack of patching. The CSO will review the
       previous report when verifying the current quarter’s POA&M.

Vulnerability Remediation and Patch Management

CSO-STD-0020 requires legitimate vulnerabilities to be remediated in accordance with an
organizational assessment of risk and within the following timeframes:

   •   Within 21 calendar days for critical findings.
   •   Within 45 calendar days for high-risk findings.
   •   Within 90 calendar days for moderate-risk findings.


                                               8
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2013


   •   Within 120 calendar days for low-risk findings.

NRC also requires system owners to ensure automated mechanisms are employed quarterly to
determine the state of information system components with regard to flaw remediation. The IT
security risk management activities memorandum and instructions for FY 2013 require system
owners to patch, scan, and check the security of their systems with the rigor and frequency
appropriate for the system sensitivity level and define the frequency for conducting routine
patching.

3.2.2 Agency Has Not Fully Met Requirements

The FISMA evaluation team reviewed the security test and evaluation results for the four
systems selected for evaluation in FY 2013, and the annual security control test results for
agency and contractor systems, specifically test results for controls related to configuration
management, vulnerability scanning, and patching. We also reviewed a network security
evaluation report for an assessment performed on the NRC network by another agency in the
spring of 2012. As in previous years, we found that configuration management continues to be
an issue with many NRC systems.

Standard Baseline Configurations Are Not Implemented on Some NRC Systems

As reported in the FY 2011 FISMA evaluation, the FY 2013 FISMA evaluation team found that
standard baseline configurations are not implemented on some NRC systems. Vulnerability
scanning performed as part of security control assessment activities identified numerous
vulnerabilities that demonstrate non-compliance with required baseline configurations in more
than half of NRC’s operational systems. These are vulnerabilities that have been identified by
the agency as actual weaknesses requiring remediation and most are being tracked on the
agency’s POA&Ms. This issue is due in part to problems with the templates used in the
agency’s compliance assessment tool. Recent security control assessments performed by the
agency found that some compliance tool templates are not configured per NRC established
checklists. As a result, security controls are not being assessed against the correct criteria. In
addition, recent security control assessments performed by the agency found issues with group
policy objects issued by the agency’s infrastructure system not matching NRC-mandated
configuration settings. As a result, any server applying these group policy objects are not
compliant. The 2012 security evaluation performed by another agency on the NRC network also
found a lack of a strictly enforced software baseline for Windows servers.

Software Compliance Assessment Procedures Are Not Consistently Implemented

As reported in the FY 2011 FISMA evaluation, the FY 2013 FISMA evaluation team found that
software compliance assessment procedures are not consistently implemented. Recent security
control assessments performed by the agency found that four of NRC’s operational systems
continue to have issues implementing software compliance assessment procedures in accordance
with NRC requirements. These systems are not performing scans in accordance with agency
timeframes. In one instance, a portion of a system’s components were not being scanned at all.
For another system, a deviation was granted for a portion of the system to be scanned annually



                                                9
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2013


instead of quarterly; however, scans were not performed in accordance with the timeframe in the
approved deviation. The most significant finding from recent security control assessments
performed by the agency is that multiple components of the NRC’s infrastructure system are not
being scanned because they were just not included in scans, were not joined to the domain, or
credentials were not used to scan certain components as required. For the fourth system, scans
are not being performed quarterly as required.

Vulnerability Remediation and Patch Management Procedures Are Not Consistently
Implemented

As reported in the FY 2011 FISMA evaluation, the FY 2013 FISMA evaluation team found that
configuration-related vulnerabilities, scan findings, and security patch-related vulnerabilities are
not always remediated in a timely manner. Recent security control assessments performed by
the agency found that one-third of NRC’s operational systems continue to have issues
remediating vulnerabilities in a timely manner. Delays in patching systems were due in part to
problems the agency was having with their patch management software. The software was
unable to push patches to some system components for 2 months, or was dropping servers from
the group to receive a particular patch. As a result, servers for two systems were not consistently
receiving the required patches. In addition, recent security control assessments performed by the
agency found another nine systems with either missing patches and/or outstanding weaknesses
from previous assessments. The 2012 security evaluation performed by another agency on the
NRC network also found systematic issues with patching UNIX systems throughout the agency,
issues with patching third-party software running on Windows servers, and issues with patching
database software.

RECOMMENDATIONS

The issue with configuration management procedures is a repeat finding from the FY 2011
FISMA evaluation. The five recommendations from the FY 2011 FISMA evaluation are still
open, as the agency has not completed all of their planned remediation activities. Therefore,
OIG is not issuing any new recommendations for addressing this finding.

3.3    Plan of Action and Milestones (POA&M)

FISMA, OMB, and NIST define the requirements for a POA&M process for planning,
implementing, evaluating, and documenting remedial action to address any deficiencies in the
information security policies, procedures, and practices of the agency. To meet these
requirements, NRC developed CSO-PROS-2016, U.S. NRC POA&M Process, and implemented
an automated tool to help manage the agency POA&Ms. CSO-PROS-2016 describes the process
for NRC to identify, assess, prioritize, and monitor the progress of corrective actions pertaining
to security weaknesses and provides agency direction for the management and tracking of
corrective efforts relative to known weaknesses in IT security controls. NRC uses an automated
tool for tracking IT security weaknesses associated with information systems used or operated by
the agency or by a contractor of the agency or other organization on behalf of the agency. The
FY 2012 FISMA evaluation found that NRC’s POA&M process was not consistently followed
and the agency’s POA&M tool did not implement key OMB and NRC POA&M requirements.



                                                 10
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2013


The agency has yet to complete the two recommendations from the FY 2012 FISMA evaluation
related to the POA&M process and many of the same issues were found again in FY 2013. As a
result, NRC’s POA&Ms are still not effective at monitoring the progress of corrective efforts
relative to known weaknesses in IT security controls and therefore do not provide an accurate
measure of security program effectiveness.

Finding #4: NRC POA&M Program Still Needs Improvement

CSO-PROS-2016 describes the process for NRC to identify, assess, prioritize, and monitor the
progress of corrective actions pertaining to security weaknesses and provides agency direction
for the management and tracking of corrective efforts relative to known weaknesses in IT
security controls. As a result of recommendations from the FY 2007 FISMA evaluation, the
agency implemented a tool for automating the POA&M process. The automated tool was put in
place to ensure the agency’s POA&M procedures are implemented consistently, completely, and
accurately.

However, the FY 2013 FISMA evaluation team found that NRC’s POA&M program still needs
improvement. Specifically, NRC’s POA&M process is still not consistently followed and the
agency’s POA&M tool still does not implement key OMB and NRC POA&M requirements.
The evaluation team also found that initial target remediation dates are frequently missed. As a
result, the NRC’s POA&Ms are not effective at monitoring the progress of corrective efforts
relative to known weaknesses in IT security controls.

3.3.1 POA&M Process Requirements

CSO-PROS-2016 describes specific requirements for NRC POA&Ms, including the following:

   •   POA&Ms must be updated to add vulnerabilities as part of an independent assessment
       such as security testing and evaluation, continuous monitoring, vulnerability assessment
       report, security assessment report, security impact assessment, U.S. Government
       Accountability Office report, or OIG report. These weaknesses must be added to the
       POA&M as soon as possible, but not to exceed 60 days from the assessor’s report.
   •   POA&Ms should be updated within the automated tool by the system owner with the
       most current information by the 15th of November, February, May, and August. System
       owners should keep abreast of weakness mitigation activities to ensure the documented
       status accurately reflects the environment at that particular point in time.
   •   Once the scheduled completion date is set, it should not be changed.

Instructions included with the IT security risk management activities memorandum for FY 2013
required system owners to add three risk management activities and respective due dates to their
systems’ POA&M in the agency information assurance tool and track them to completion.
These activities are annual contingency plan testing, annual security control testing, and security-
related document updates, including annual system security plan update.

The following are some key OMB and NRC requirements for POA&M reporting:



                                                 11
                                                                           Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2013


   •   Scheduled completion dates should not be changed.
   •   All weaknesses should have a scheduled completion date.
   •   All weaknesses should identify the source of the weakness.
   •   All closed weaknesses should have an actual completion date.
   •   Weakness should be reported as delayed once the scheduled completion date has passed.

3.3.2 Agency Has Not Fully Met Requirements

The FISMA evaluation team reviewed NRC POA&Ms for all four quarters of FY 2012. As in
previous FISMA evaluations, we found that POA&Ms do not include all known security
weaknesses and POA&Ms are not updated in a timely manner.

POA&Ms Do Not Include All Known Security Weaknesses

CSO-PROS-2016 requires POA&Ms to be updated to add vulnerabilities identified as part of an
independent assessment such as security testing and evaluation, continuous monitoring,
vulnerability assessment report, security assessment report, security impact assessment, U.S.
Government Accountability Office report, or OIG report. These weaknesses must be added to
the POA&M as soon as possible, but not to exceed 60 days from the assessor’s report. However,
as reported in the FY 2012 FISMA evaluation, the FY 2013 FISMA evaluation team found some
IT-related weaknesses were not added to the POA&Ms as required by agency policy.

   •   Weaknesses identified during the agency’s 2013 annual security control testing for two
       systems were not added to their respective POA&Ms.
   •   Recommendations from the agency’s 2013 contingency plan testing for seven systems
       were not added to their respective POA&Ms.
   •   The FY 2012 FISMA evaluation noted that recommendations from an OIG report issued
       in July 2011 on NRC’s shared “S” drive had not been added to the appropriate POA&M.
       To date, they still have not been added to the POA&M and three of the recommendations
       are still open.
   •   Between August 2012 and January 2013, OIG issued five reports on information security
       risk evaluations performed in the regional offices and at the Technical Training Center.
       None of the recommendations from these reports have been added to the appropriate
       POA&M.
   •   Only 2 of the 13 recommendations from the FY 2012 FISMA evaluation have been added
       to the appropriate POA&M.
   •   In January 2013, OIG issued a report on the use and security of social media. The report
       included 34 recommendations, of which 8 were IT security related; however, none were
       added to the appropriate POA&M.
   •   In April 2013, OIG issued a report on one of the agency’s systems. The report included
       seven recommendations, of which two were IT security related; however, they were not
       added to the POA&M for the system.




                                              12
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2013


POA&Ms Are Not Updated in a Timely Manner

CSO-PROS-2016 requires POA&Ms to be updated within the automated tool by the system
owner with the most current information by the 15th of November, February, May, and August.
Instructions included with the IT security risk management activities memorandum for FY 2013
required system owners to add annual contingency plan testing, annual security control testing,
and security-related document updates, including annual system security plan updates to their
systems’ POA&Ms.

As reported in the FY 2012 FISMA evaluation, the FY 2013 FISMA evaluation team found
POA&Ms are not updated in a timely manner. The following are some examples of updates that
are not timely:

   •   Approximately 14 percent of closed weaknesses were not reported closed in the quarter
       in which they were actually closed.
   •   Weaknesses closed by OIG are still not being reported as closed on the POA&Ms.
   •   The program level POA&M and eight system POA&Ms still include weaknesses that are
       more than 1 year old. One system POA&M has more than 300 weaknesses that are more
       than 1 year old and should no longer be reported.
   •   The evaluation team found that some or all of the annual IT security risk management
       activities were not added to POA&Ms for 6 of the agency’s 23 systems. This is a repeat
       finding for four of those systems.

3.3.3 NRC’s POA&M Tool Still Does Not Implement Key OMB and NRC POA&M
      Requirements

In the FY 2012 FISMA evaluation, the evaluation team found NRC’s POA&M tool allows
weaknesses to be created that do not follow OMB and NRC POA&M requirements.
Specifically, the tool:

   •   Allows scheduled completion dates to be changed.
   •   Allows weaknesses to be created without a scheduled completion date.
   •   Allows weaknesses to be created with no value in the field that identifies the source of
       the weakness.
   •   Allows a weakness to be closed without specifying an actual completion date.
   •   Does not automatically change the status from on track to delayed once the scheduled
       completion date has passed.

The tool also allows users to enter actual completion dates in the future and allows users to enter
an actual completion date when the status is not closed. These two issues have been corrected in
a new version of the tool currently under evaluation and testing; however, the remaining issues
have yet to be addressed.




                                                13
                                                                           Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2013


3.3.4 Initial Target Remediation Dates Are Frequently Missed

The agency’s progress in correcting weaknesses reported on its POA&Ms has declined since FY
2012. In FY 2012, the agency closed 30 percent of its program level weaknesses and 55 percent
of its system level weaknesses. However, in FY 2013, the agency closed only 15 percent of its
program level weaknesses and 37 percent of its system level weaknesses.

RECOMMENDATIONS

The issue with the NRC POA&M program is a repeat finding from the FY 2012 FISMA
evaluation. The two recommendations from the FY 2012 FISMA evaluation are still open, as the
agency has not completed all of their planned remediation activities. Therefore, OIG is not
issuing any new recommendations for addressing this finding.




                                              14
                                                                           Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2013


4      Consolidated List of Recommendations

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Update the information in the NRC inventory for contractor systems to include missing
       information and to correctly classify contractor systems in accordance with CSO-PROS-
       2030, NRC Risk Management Framework.
    2. Based on the updated inventory of contractor systems, identify those that are not
       compliant with CSO-PROS-2030, NRC Risk Management Framework, and complete
       appropriate authorization activities for those systems.
    3. Develop procedures for ensuring the annual IT security risk management activities for
       systems owned and/or operated by other agencies or contractors are completed in
       accordance with NRC requirements.




                                              15
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2013




[Page intentionally left blank]




              16
                                                                          Independent Evaluation of
                                                           NRC’s Implementation of FISMA for FY 2013


5      Agency Comments

An exit conference was held with the agency on November 19, 2013. At this meeting, agency
management stated their agreement with the findings and recommendations in this report and
opted not to provide formal comments for inclusion in this report.




                                             17
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2013




[Page intentionally left blank]




              18
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2013


Appendix.          OBJECTIVE, SCOPE, AND METHODOLOGY

OBJECTIVE

The objective was to perform an independent evaluation of NRC’s implementation of FISMA for
FY 2013.

SCOPE

The evaluation focused on reviewing the agency’s implementation of FISMA for FY 2013. The
evaluation included an assessment of compliance with FISMA requirements and related
information security policies, procedures, standards, and guidelines, and a review of information
security policies, procedures, and practices of a representative subset of the agency’s information
systems, including contractor systems and systems provided by other Federal agencies. Three
agency systems and one contractor system were selected for evaluation.

The evaluation was conducted at NRC headquarters from June 2013 through September 2013.
Any information received from the agency subsequent to the completion of fieldwork was
incorporated when possible. Throughout the evaluation, evaluators were aware of the potential
for fraud, waste, or misuse in the program.

METHODOLOGY

Richard S. Carson & Associates, Inc., conducted an independent evaluation of NRC’s
implementation of FISMA for FY 2013. In addition to an assessment of compliance with
FISMA requirements and related information security policies, procedures, standards, and
guidelines, the evaluation included an assessment of the following topics specified in OMB’s FY
2013 Inspector General FISMA Reporting Metrics.

   •    Continuous Monitoring Management.
   •    Configuration Management.
   •    Identity and Access Management.
   •    Incident Response and Reporting.
   •    Risk Management.
   •    Security Training.
   •    Plan of Action and Milestones.
   •    Remote Access Management.
   •    Contingency Planning.
   •    Contractor Systems.
   •    Security Capital Planning.




                                                19
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2013


To conduct the independent evaluation, the team reviewed the following:

   •   NRC policies, procedures, and guidance specific to NRC’s IT security program and its
       implementation of FISMA, and to the 11 topics specified in OMB’s reporting metrics.
   •   Security assessment and authorization documents for the four systems selected for
       evaluation during the FY 2013 independent evaluation, including security test and
       evaluation reports and vulnerability assessment reports prepared in support of security
       test and evaluation.
   •   Security categorizations, security plans, contingency plans, contingency plan test reports,
       and authorization to operate memoranda for all agency systems.
   •   Annual security control testing reports for all agency systems.
   •   Annual security control testing report for the agency’s common controls, as controls such
       as incident response, security training, and security capital planning are partially provided
       at the agency level for all NRC information systems.

When reviewing security test and evaluation and annual security control testing reports, the team
focused on security controls specific to the 11 topics specified in OMB’s reporting metrics.

All analyses were performed in accordance with guidance from the following:

   •   NIST standards and guidelines.
   •   Management Directive and Handbook 12.5, NRC Cyber Security Program.
   •   NRC Computer Security Office policies, processes, procedures, standards, and
       guidelines.
   •   NRC OIG audit guidance.

The evaluation work was conducted by Jane M. Laroussi, CISSP, from Richard S. Carson &
Associates, Inc.




                                                20
Report Location: G:AUDIT\14-A-03 FISMA\FINAL EVALUATION REPORT –
OIG-14-A-03 Independent Evaluation of NRC’s Implementation of the Federal
Information Security Management Act for Fiscal Year 2013 (PXB).docx

Distribution
AIGA r/r
MBlair
JGordon
BSerepca
SZane
SDingbaum


ADAMS Accession Number:


OIG            OIG       OIG         OIG       OIG       OIG        OIG
MBlair         JGordon   BSerepca    SZane     SDingbaum DLee       HBell
11/ /13        11/ /13   11/ /13     11/ /13   11/ /13   11/ /13    11/ /13


SUNSI Review - OK for      SUNSI Review – Redacted   SUNSI Review –
Public Release             for Public Release        OUO Not for Public
                                                     Release
SZane                      SZane                     SZane
11/ /13                    11/ /13                   11/ /13


                              OFFICIAL FILE COPY
